Table of Contents
Item

Page

1. Issues raised in the lower courts

A1

2. Exerpts from rule 60(b) Motion before Judge Martinotti

A3

3. 4/6/18 order of Judge Martinotti

A19

4. 8/28/18 Order of The third Circuit

A29

5. Docket from case P15-cv00244

A32

6. Docket from case P15-cv05520

A3 4

7. Docket from case 3O8-cv01296

A3 7

8. 1/7/19 Order of Judge martinotti

A 39

9. 7/19/19 Order of Third Circuit

A45

Al
A. John Reardon, et al v Judge Hillman, et al, Appeal No. 19-1334:
Question/Issues For Review
(a) The Courts’ Orders are in fact void; (b) The claims made against the
Appellees is one of the nature and factual claims of the function and thus the
Appellees would be liable for non-discretionary, non-judicial, mandatory
ministerial or administrative acts; (c) allowed to set aside a judgment for errors of
facts or law; (d) failed to grant leave to amend; (e) Does the court have the right,
power, authority or discretion to unilaterally plead personal defenses for a party
as a defense counsel would and is required to do. Plenary Review sought.
B. John Reardon, et al v Judge Hillman, et al, Appeal No. 18-1880:
Question/Issue for Review
1. Do court personnel have absolute immunity from suit for it’s non­
discretionary, Ministerial Acts that are mandatory?
2. Do court personnel who willfully, intentionally, deliberately and
Knowingly deny a plaintiff of his 1st and 5th Amendment Rights have any
immunity when the basis for this issue is such that no court in the United States,
from the lowest State Court to the U.S. Supreme Court has ever ruled on such a
case or question?
3. Is the lower court decision void for want of Due Process?
C. Rule 60 Motion for case i:i8-cv-01296:
D. Questions for Review [Rule 60 Motion]
1. Has the court focused on the nature of the official rather than the

A2
nature of the act?
2. Has this court acted as counsel for these defendants and thereby
acted without official discretion for non-judicial conduct, and opened itself
up for a lawsuit for a non-judicial act of acting as counsel for these
defendants?
3. Is the entry of default discretionary, or mandatory and ministerial,
which accords immunity for such a task/function?
4. Is the court’s order void since it denied the plaintiff the right to be
heard before dismissing his case and violated my rights to Due Process to
notice and be heard and due to the fact that this court found the clerk to be
only entitled to qualified immunity and that such immunity questions must
wait till after discovery has been completed for a summary judgment motion
or to be determined at trial?
5. Is Judge Hillman and the clerk liable under a theory of Qualified
Immunity?

A3
Excerpts from Civil Case L18-cv-01296:
1. The plaintiff filed cases L15-cv-00244 and L15-cv-05520 in federal court
claiming denials of various Constitutional Rights and suing to recover $ 100's of
millions of dollars for the injuries the defendants in said cases inflicted upon the
plaintiffs as follows:
A. For case 00244 the plaintiffs are John E., John J. And Judith A.
[Hatterer] Reardon. And
B. For cases 05520, 08597 and L17-cv-05868 the plaintiff is John E.
Reardon.
2. In April 2015 the plaintiff did file a request with the clerk to enter
default due to the defendants failure to timely plead or otherwise defend in case
00244. Failures under Rule 12(a)(l)(A)(i) and 12(h).
3. The Clerks, Jay Sanchez and Ryan Merrigan, took it upon themselves to
refuse to carry out their duty to enter default upon Mr. Reardon’s demand when
they have no discretion to not so enter default upon demand of Mr. Reardon. See
BAC LOCAL 2, ALBANY v. Moulton Masonry & Const., 779 F. 3d 182, 2nd Cir.
2015; Meehan v Snow, 652 F.2d 274, 276, 2nd Cir, 1981; Hoxworth v Blinder
Robinson and CO., 980 F.2d 912, 917, 3rd Cir. 1992 and Cottrell v. Norman, Dist.
Court, D.N.J. 2015 , by Judge Hillman.
4. Between April 13, 2015 and November 2016 the plaintiff made
numerous attempts for default and default judgment to the clerk and Judge
Hillman, and for the court to (a) order the clerk to enter Default and/or

—

A4
default judgment, or (b) for the court to enter default and/or default
judgment, when the court knew that default is mandatory and not
discretionary, either by the clerk or the Judge, and is a ministerial act by the
Clerk and the Judge, and Judge Hillman refused to do either (l) order the clerk to
enter Default or (2) for the court to enter default which is ministerial since it is
performed by another court officer and not discretionary on the part of the clerk or
Judge and Mr.s Sanchez and Merrigan, and Judge Hillman refused to so enter
default and/or grant default judgment in cases 00244 and 05520 or (c) to set a
trial date as to damages for these lawsuits.
7. In July 2015 Mr. Reardon did file case 1H5-cv05520 against numerous
parties that injured the plaintiff to the tune of $100's of Millions of dollars for the
denial of Mr. Reardons 1st, 4th , 6th , 8th , 9th and 14th Amendment Rights.
8. On October 29, 2015, when the defendants in case 05520 failed to timely
plead or defend Mr. Reardon did seek default against the defendants with the
clerk, and Mr. Merrigan took it upon himself to not so enter default in case 05520.
9. Between October 2015 and November 2016 Mr. Reardon made numerous
attempts to get Default and Default Judgment and Judge Hillman And Mr.s
Sanchez and Merrigan continued to deny the plaintiff of default thus injuring the
plaintiff in the denial of his 1st and 5th Amendment rights in excess of
$100,000,000.00.
10. In April or May, 2015 the plaintiff did submit a letter to the clerks
which states that a Party who fails to timely answer or otherwise plead to the

A5
case waives any right to object to the method of service and the clerk could not
then refuse to enter default since the waiver under Rule 12(h) is not something
that the defendants can ignore and thus the clerk could not so refuse to enter
default due to the method of service and the clerk refused to so enter default.
11. The well settled law that both Judge Hillman and Mr.s Sanchez,
Merrigan and Ms. Ramsey are aware of is that:
(A) The entry of Default is not discretionary but is mandatory, see cases in
statement 3 above;
(B) The court has no right, power or privilege to refuse to either (l) not
enter default: or (2) to not order the clerk to do the same! or (3) That such is a
ministerial act, not a judicial act, since it is performed by other court personnel.
See Cases cited in statement 3 above and N.Y. v Green, 420 F.3d 99, 104, 2nd Cir.
2005; Hoxworth v Blinder Robinson & Co., Inc., 980 F.2d 912, 917, 3rd Cir. 1992;
N.Y. Life Ins. V Brown, 84 F.3d 137, 143, 5th Cir. 1996; Hawaii Carpenter’s Trust
Fund v Stone, 9th Cir. 1986; Breuer Elec, Mfg. V Toronado Systems of America,
687 F.2d 182, 185, 7th Cir. 1982; Ackra Direct Marketing v Fingerhut Corp., 86
F.3d 852, 855, 8th Cir. 1996; Compudyne, Inc. V Coroth, 908 F.2d 1142, 1145
1147, 3rd. Cir., 1990; BAC LOCAL 2, ALBANY v. Moulton Masonry & Const., 779
F. 3d 182 Court of Appeals, 2nd Cir. 2015; Petrucelli v Bohringer and Ratzinger,
46 F.3d 1298, 1304, 1305, 3rd Cir. 1995 and McCurdy v American Bd. Of Plastic
Surgeons, 157 F.3d 191, 194-195, 3rd Cir. 1998.
12. The defendants are not immune for damages for non-discretionary

A6
or ministerial acts that deny rights. See ex parte Virginia, 100 US 339, 348, 349
1880; Pierson v. Ray, 386 US 547, 563, 1967 ; Davis v. Scherer, 468 US 183,
1984,Ft.Nt. 14; McCray v. State of Maryland, 456 F. 2d 1, 4, 4th Cir. 1972; In re
Paoli RR Yard PCB Litigation, 221 F. 3d 449, 453, 461, 3rd Cir. 2000 and Davis v
Tarrant County, Tex., 565 F. 3d 214, 225, 5th Cir. 2009.
13. The defendants did refuse to carry out a mandatory Ministerial Act by
denying Default when they are aware that they cannot refuse to enter default and
has thus granted a privilege to the parties in these 2 cases they are not entitled to
and these defendants failed to do their jobs for and causing the plaintiffs to be
denied of their 1st and 5th Amendment rights to be heard on cases 00244, 05520
and L17-CV-05868.
14. The defendants have no right to refuse to carry out a ministerial Act
and they are not immune for failure to perform that ministerial act that has
denied the plaintiffs of their 1st and 5th Amendment rights.
15. The defendants did also discriminate against the plaintiffs in that we
are being denied our (a) 5th Amendment Rights to be heard on their complaint
that those who are represented by counsel enjoy; (b) The right to a just, speedy
and inexpensive resolution of their lawsuit as per F.R.Civ.P. 1 and the case of
Foman v Davis, 371 US 178, 182, 1962 as to those who are represented by
counsel receive; (c) To the same treatment under F.R.Civ.P. 4 in that the court
allowed counsel in Sanderford v Prudential Ins. Co. Of America, 902 F.2d 897,
900, 11th Cir. 1990; UNITED FOOD & COM’L WKRS. U., ETC. v. Alpha Beta Co.,

A7
736 F. 2d 1371, 9th Cir. 1984 and Myers v Moore,, D.C., ED Pa., 2014 to use
service by mail and Espinopza v U.S., 52 F.3d 838, 841, 10th Cir. 1995 and Rule 4
being a flexible Rule and National Life Ins. Co. V U.S., 277 U.S. 508, 530, 1928;
also, Lawrence v State Tax Commission, 286 U.S. 276, 282, 283, 1862; Olmstead v
L.C., 527 U.S. 581, 614, 1999; Jackson v Birmingham Brd. Of Ed., 544 U.S. 167,
174, 2005 as to what constitutes discrimination and Insurance Corp. Of Ireland v
Compagnie Des Bauxite, 456 U.S. 694, 704, 1982; Robinson v. Johnson, 313 F. 3d
128, 134, 3rd Cir. 2002; Rauch v Day & Night Mfg. Corp., 576 F. 2d 697, 700, 6th
Cir. 1978; Ennenga v Starns, 677 F.3d 766, 773, 7th Cir. 2012; Yeldell v. Tutt, 913
F. 2d 533, 539, 8th Circuit 1990; Alger v. Hayes, 452 F.2d 841, 8th Cir. 1972;
AMERICAN ASS'N OF NATUROPATHIC PHYSICIAN, v. Hayhurst, 227 F. 3d
1104, 1106, 9th Cir. 2000; Jackson v. Hayakawa, 682 F. 2d 1344, 1348, 9th Circuit
1982 citing Sellers v McCrane, 55 F.R.D. 466, D.C., E.D. Pa, 1972; Kontrick v
Ryan, 540 U.S. 443, 459, 2004; Golday v Morning News, 156 U.S. 518, 521, 1895;
Billy v Ashland Oil Co., 102 F.R.D. 230, 234, D.C., W.D Pa., 1984; Commerce
Casualty insurance Co. V Consolidated Stone CO., 278 U.S. 177, 180, 1929 and
Umbenauer v Woog, 969 F.2d 25, 32, 3rd Cir., 1991 as to waiver of Service defects
under F.R.Civ.P. 12(b)(2)-(5) and 12(h).
16. Judge Hillman has continued to deny the plaintiffs’ of their day in court,
to default, to default judgment and their right to be heard, to denial of the same
rights and treatment under the law that attorneys are accorded under F.R.Civ.P.
1,4, 12 and 55 and deliberately citing case law that is not consistent with the

A8
Decisions of the U.S. Supreme Court that has and continues to be cited to him and
by him and he ignores and cites cases that are not on point or cites cases and
implies they say one thing when they say something else.
20. Judge Hillman has failed to comply with Stare Decisis at the U.S.
Supreme Court level, the Appellate Court level and failed to comply with other
issues that were in the Reardons’ favor related to these Rules cited herein in
courts of other circuits. Payne v. Tennessee, 501 US 808, 827, 1991.
21. Judge Hillman and the clerks have denied The Reardons of their rights
under the 1st and 5th Amendments and to their rights under Rules 1, 4, 12(b)(2)(5), 12(h) and 55.
22. The defendants have deliberately denied the plaintiffs of their rights
under the 1st and 5th Amendment and F.R.Civ.P.s 1, 4, 12 and 55.
23. Judge Hilman has refused to comply with the law in that he refuses to
enter Default on Mr. Reardon’s request for same claiming that the clerk, and not
the court, must enter said default and knowing full well that he could enter both
default and default judgment when a party fails to plead or otherwise defend
within the 21 days allotted by F.R.Civ.P. 12(a)(l)(A)(i). These defendants have
intentionally denied the plaintiffs’ of their rights. See Breur Electric. Mfg. v
Torronado Systems of America, 687 F.2d 182, 185, 7th Cir. 1982; O'BRIEN v. RJ
O'Brien & Associates, Inc., 998 F.2d 1394, 1399, 7th Cir. 1993; and Ackra Direct
Marketing Corp. v Fingerhut Corp., 86 F.3d 852, 855, 8th Cir. 1996! Wolf Lake
terminals, Inc. v. Mutual Marine Ins., 433 F. Supp. 2d 933, 941, Dist. Court, ND

A9
Indiana, 2005 and Hatton v. RIDE RIGHT, LLC, Dist. Court, SD Indiana 2015.
Commerce Casualty insurance Co. V Consolidated Stone CO., 278 U.S. 177, 180,
1929.
24. Judge Hillman and the clerks took issue with insufficient service of
process, and the defendants in cases 00244 and 05520 never objected to or took
issue with such process in a timely fashion.
25. The plaintiffs, in cases 00244 and 05520, are not obligated to prove
perfect service unless those parties plead or otherwise defend and object to said
process and the defendants in said cases have failed to so timely object to
Rl2(b)(2)-(5) defenses and they thus waived said defenses in accordance with
Rl2(h) and the relevant case law cited to the defendants for which they know.
26. These defendants have shown an apparent adverse bias against these
pro se plaintiffs for some unknown reason that deprived the plaintiffs of their
rights under Rules 1, 4, 12, 55 and the 1st and 5th Amendment and to fair
hearings.
27. The clerks have no discretion to refuse to enter Default under R 55(a)
and the Judge knew that he could not refuse to order the clerk to enter said
default and the Clerks and Judge Hillman have done everything they can to
prevent the Reardons from being heard on their lawsuits and to the same rights,
and respect that are accorded to attorneys and has been done so deliberately.
28. Judge Hillman and the clerks have apparently conspired to deny these
pro se plaintiffs of the equal treatment under the law, to Due Process to a fair

A10
hearing and. has discriminated against these pro se plaintiffs by refusing to grant
these pro se plaintiffs the same treatment under the law that they accord to those
represented by Attorneys and this is an ongoing conspiracy since Judge Hillman
refused to recuse himself from cases 00244 and 05520, or has not ordered the clerk
to enter default and default judgment and Judge Hillman is deliberately
depriving these pro se plaintiffs of their right to be heard and the other rights
listed herein and we have been discriminated against. The appearances, which
must be kept in mind, is that Judge Hillman is biased against these pro se
plaintiffs and required to recuse himself and he refuses to do that or has conspired
with the clerks to deny the Plaintiffs of their rights under Rules 1, 4, 12 and 55
And the 1st and 5th Amendments.
29. The hard facts that the people are entitled to and for which is evidence
is the decisions of the Courts which settles rights, the Statutes, the case law and
the Constitution, and the court has done everything it can to ignore our rights, the
law and the evidence which is based upon the facts. Juzwin v Asbestos Corp.
Ltd., 900 F,2d 686, 692, 3rd Cir. 1990.
34. Both Judge Hillman and the clerks have a particular bent and bias
against the Reardons for some unknown reason and they have deliberately
refused to do their job and Judge Hillman has deliberately cited case law that
does not apply to these cases to deny Mr. Reardon of his day in court and to act as
an opponent against the Reardons and a proponent for the defendants in all 4
mentioned cases.

All
35. The clerks did place on the Docket sheet that said refusal to enter
default shall remain on the record unless Judge Hillman orders otherwise and
Judge Hillman repeatedly refuses to enter default or order the clerk to enter
default leaving the plaintiffs’ holding their “Proverbial Ass” with no right to be
heard.
40. The clerks and Judge have no immunity for non-discretionary,
ministerial Acts such as entering default upon demand and supported by an
affidavit which Mr. Reardon did comply with both of these items. He demanded
default and sought it with affidavits supporting service of the summons and
complaint in cases 00244 and 05520. Pierson v. Ray, 386 US 547, 563, 1967;
Davis v. Scherer, 468 US 183, 1984, Ft.nt. 14; McCray v. State of Maryland, 456
F. 2d 1, 4, 4th Cir. 1972 and Davis v Tarrant County, Tex., 565 F. 3d 214, 225,
5th Cir. 2009.
41. Discrimination in ministerial acts of the clerk or judge are such as they
are liable for, or in other words are not immune for, and the clerks and Judge
Hillman have discriminated against the Reardons’ by denying them of the same
rights all other litigants are entitled to and enjoy as it relates to default and/or
default judgment or a trial date as to damages.
42. There is nothing in F.R.Civ.P. 1, 4, 12 or 55 that says the plaintiff must
prove perfect service in order to get default and default judgment against a
defendant that refuses to answer or plead to a lawsuit. In fact, the case law
clearly holds that if a defendant fails to plead or file a motion objecting to the

A12
defenses under F.R.Civ.P. 12(b)(2)-(5) within the period set at F.R.Civ.P. 12(a)(1)
(A)(i) that under F.R. Civ.P. 12(h) said defenses are waived and forever lost if the
defendant does not answer the complaint and raise said defenses, or file a motion
to challenge such defenses within the 21 days required by F.R.Civ. P. 12(a)(1)(A)
(i) and there is nothing in said rules that would allow a judge or clerk the
authority or right to assert said defenses for a party clearly in default and the
Clerks and Judge Hillman have taken it upon themselves to plead these defenses
for the defaulting defendants in cases 00244, 05520 and F17-cv05868 and
thereby acted as counsel for said defendants when they have no right, power,
authority , or discretion to so do.
47. The clerk and the Judge are protecting each other from the deliberate,
willful, intentional, willing and knowing denial of the plaintiff s rights and by
way of F.R.Civ.P. 1, 4, 12 and 55 and to their rights under the 1st and 5th
Amendments and to the equal treatment under the law and is so discriminating
against the pro se plaintiff because he is pro se and is seeking to establish
precedent setting cases in the federal court that they do not want a pro se person
to set.
51. The clerk’s and Judge Hillman have willfully, deliberately, knowingly
and intentionally, by way of a conspiracy between Judge Hillman and the named
clerks, did discriminate against Mr. Reardon in cases 1H5-cv00244, F15-cv
05520, F15-CV-08597 and case F17-cv05868 as follows.
A. Judge Hillman took it upon himself in the 1st 2 cases to claim that

A13
Mr. Reardon must prove perfect service to obtain default and default judgment
which in effect voids Rules 1, 12 and 55 and he so refused to order the clerk, or he
himself, to enter default and carry out his mandatory, ministerial act of so
ordering the clerk to do so or him doing so. See #C below.
B. In cased 08597 Judge Hillman did take it upon himself to deliberately
rule contrary to the 1st and 7th circuits, Judge Pisano in the U.S. District Court of
New Jersey, and the U.S. Supreme Court case of Gabelli v SEC, 133 S.Ct. 1216,
2013 and refused to set aside his known unlawful order.
C. In case 05868 Judge Hillman did take it upon himself to conspire with
the clerk’s office by ordering them not to enter my lawful and rightful demand for
default since the state was properly served and failed to make a timely reply 2
times. First on September 14, 2017 and then on December 28, 2017 While the
court claimed the only reason why default was not entered in cases 00244 and
05520 was over service issues, there are no such issues in case 05868 and the
court still denied Mr. Reardon of his rights to default. Judge Hillman and the
clerk’s office has denied me the equal treatment under the law and to his 1st and
5th Amendment rights and rights under F.R.Civ.P. 1, 4, 12 and 55 and has
obviously conspired with each other to deny Mr. Reardon of the equal treatment
under the law and his rights under the 1st and 5th Amendments and F.R.Civ.P. 1,
4, 12 and 55.
D. The request for default by the clerk or the judge is a ministerial act for
which they have no immunity from or for and for which is mandatory to be

A14
entered and they have conspired to deny Mr. Reardon of his rights under the 1st
and 5th Amendment and the rights as per F.R.Civ.P. 1, 4, 12 and 55 and has in
fact discriminated against Mr. Reardon. National Life Insurance Co. v United
States, 277 U.S. 508, 530, 1928; Lawrence v State Tax Commission, 286 U.S. 276,
282, 1862; Olmstead v L.C., 527 U.S. 581, 614, 1989; Jackson v Birmingham Brd.
Of Ed., 544 U.S. 167, 174, 2005; Ex Parte Virginia, 100 US 339, 348, 1880;
Pierson v. Ray, 386 US 547, 563, 1967; Davis v Scherer, 468 US 183, 1984, Ft. Nt.
14; McCray v. State of Maryland, 456 F. 2d 1, 4, 4th Cir. 1972; In re Paoli RR
Yard PCB Litigation, 221 F. 3d 449, 453, 461, 3rd Cir. 2000 and Davis v. Tarrant
County, Tex., 565 F. 3d 214, 224, 225, 5th Cir. 2009.
52. Neither the clerk nor the judge has any discretionary power to refuse to
enter default and default judgment on demand and they both failed to carry out
their mandatory ministerial act for such and without no constitutional, legal or
discretionary right or power to so refuse and has denied this pro se plaintiff of the
equal treatment under the law, has denied the plaintiff of his rights set out in
cases 00244, 05520, 08597 and 05868.
53. The conspiracy between Judge Hillman and his clerks is an ongoing
conspiracy since it has and continues to be displayed by said defendants continued
refusal to comply with the law and the rights of this pro se plaintiff as to default,
right to petition, right to be heard and not to be discriminated against for no
reason when said acts injuring the plaintiff are non-discretionary acts by the
defendants.

A15
Count 5
The plaintiffs incorporate the allegation above into this count as though
recited herein and asks for an order to require the State to correct their records of
this pro se complainant’s criminal records as being void for the denial of the
plaintiffs constitutional rights under the 4th , 6th , 8th , 9thand 14th Amendments
and due to the loss of, lack of or usurpation of Jurisdiction of State Judges Greene
and Steinberg.
Count 9
The plaintiff asks this court to so order the following due to the state’s
default twice and failure to produce any basis for excusable neglect.
1. The Plaintiff is hereby granted the right to plead any person’s case in the
state courts that anyone so chooses him to so do.
2. That the state’s practice to fail to give an accused a probable cause
hearing at the time of arraignment is unconstitutional and for which the state
will cease failing to so do and that this is also to establish a proper basis for the
bail the accused is given and to fairness and substantiation of the crimes the
accused is alleged to have committed.
3. The state will from 1990 forward give the accused a bill of particulars to
•

the offenses against the accused at the time of the charges being filed.
4. That the state will, from 1990 forward, dismiss or set aside all
convictions of accuseds if they were not so tried within 1 year of the filing of
charges against an accused and that Mr. Reardon’s charges are to be set aside for

A16
said defect or his records corrected to recognize this defect.
5. The state practice of trying an accused on less than the plain and solemn
averment of at least 2 credible witnesses is unconstitutional and that Mr.
Reardon’s offenses are hereby order to be corrected to reflect this denial and for
him to receive relief for said violation.
6. That from 1973 forward the state will inform the people that those who
married in the eyes of God are to be considered lawfully married and did not have
to take the state’s marriage license and that the state will notify all those seeking
to marry from here on that they are not required to take a marriage license if
their marriage is lawful in the eyes of God.
7. That the state’s practice of setting bail without the accuseds’ right to a
probable cause hearing, prior to their probable cause hearing, is in violation of the
rights of the people to know that the state’s charges are sufficient and that the
bail is proper based upon the proofs of the state to such crimes that are charged
and that all suspected criminals will be permitted to be present at all bail
hearings and that they have and shall file an appeal on said bail if they believe it
is excessive, that the public defenders and state courts shall so inform the accused
of these rights and the records of Mr.Reardon shall be corrected to reflect he was
denied these rights without just cause.
8. That the state shall stop the practice of taking money from prisoner’s
accounts to pay for any fees the jail or prison so feels is needed since it violates
those jailed of the right not to have to pay their jailors any fees before, during or

A17
after confinement or release.
9. That the state shall immediately change their Public defenders’ laws and
practices to ensure that all suspects receive a zealous and competent lawyer that
will assert the suspects rights, that they will inform the suspect of his rights and
need to appeal bail, that said counsel will immediately assert the suspects right to
speedy trial and that said counsel will assert 4th Amendment issues and bail
issues immediately upon the suspects’ arrest.
10. That This state will take steps to ensure that judges who have been
sued by an accused who comes before him after such a lawsuit that the judge will
recuse himself from the proceedings, especially 4th Amendment Search and seizure
proceedings, and that the record of Mr. Reardon shall be corrected to reflect that
Judge Steinberg in fact was required to recuse himself from Sgt. Simon’s request
for a search warrant and thus the warrant and subsequent warrant of 6/29/90 are
void and should not have been sanctioned by the state since it was approved by
the appearance of a biased judge and that the 6/29/90 warrant was both by a
biased judge and the fruits of the poisonous tree and Mr. Reardon’s criminal
records shall be corrected to reflect this due to the lack of jurisdiction, usurpation
of jurisdiction, of Judge’s Steinberg and the bias of Judge Greene who could
not legally accept appointment by Judge Steinberg due to the bias of Judge
Steinberg and due to the fact that Mr. Reardon also sued Judge Greene as well
and that Mr. Reardon’s records shall be corrected to reflect that this occurred in
his case and should not have so occurred.

A18
11. The state shall inform the people from 1990 forward that they were
permitted to file counter criminal charges against those who are being charged
with crimes that have been committed by the agents of the state against an
accused and that said crimes will be prosecuted at the same time as those against
the accused and that Mr. Reardon’s records shall reflect that he was denied of his
rights to so do this.

A19
Case 3G8-cv-01296-BRM-DEA Document 9 Filed 04/06/18 Page 1 of 7
PagelD: 175
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
JOHN E. REARDON, JOHN J. REARDON,
and JUDITH A. REARDON, "
Civil Action No. 18-1296-BRM-DEA
Plaintiffs,
V.
NOEL HILLMAN, JAY SANCHEZ, DESIREE RAMSEY, and RY AN
Opinion
MERRIGAN
Defendants.
MARTINOTTI, DISTRICT JUDGE
Before this Court is the Complaint of Plaintiffs John E. Reardon, John J. Reardon,
and Judith A. Reardon (together "Plaintiffs"). (ECF No. 1.) The Court has
screened the Complaint pursuant to the 1994 Standing Order of Chief Judge
John F. Gerry ("Standing Order") because Plaintiffs name a District Court judge
as a Defendant. For the reasons set forth below, Plaintiffs' Complaint is
DISMISSED WITH PREJUDICE as to Judge Hillman and WITHOUT
PREJUDICE as to all other Defendants based or; defendants' immunity.
I. BACKGROUND
Plaintiffs bring this action against Judge Hillman and Clerk's Office employees
Jay Sanchez, Desiree Ramsey, and Ryan Merrigan, alleging violations of their
First, Fifth, and Seventh Amendments rights pursuant to 28 U.S.C. §§ 1331,
1343, 2201, and 2202, and Bivens v. Six Unknown Named

A20
Agents of the Federal Bureau of Narcotics, 403 U.S. 3 88 ( 1971 ), the federal
analogue to an action under 42 U.S.C. § 1983. The allegations in Plaintiffs'
Complaint arise from two other civil actions they are pursuing in this District, see
Reardon v. Segal, et al., No. 15-00244 (D.N.J., filed Jan. 13, 2015) and Reardon v.
Officer Mondelli, et. al., No. 15-05520 (D.N.J., filed July 9, 2015), both of which
were before Judge
1
Case 3:i8-cv-01296-BRM-DEA Document 9 Filed 04/06/18 Page 2 of 7 PagelD: 176
Noel Hillman. Plaintiffs claim Judge Hillman and the Clerk's Office employees
"refuse[d] to enter default upon demand" in the two above mentioned actions.
(ECF No. 1 Par.s 3, 4, 6, 9, 10, 13, 16, 18, 19, 23, 27, 28, 35, 48, 50, 51.) Plaintiffs
further argue the merits of their underlying cases. Plaintiffs seek over
$100,000,000 in compensatory, punitive, exemplary damages, loss of income, and
emotional and psychological distress. (See id. (Counts 1 through 9).)
II. LEGAL STANDARD
This matter is before this Court pursuant to the Standing Order because
Plaintiffs name a District Court judge as a Defendant. The Court's Standing
Order requires that in all cases where a judge of this District is named as a party,
the matter shall be assigned to a judge sitting in a different vicinage of this
District than the one in which the named judge sits. See Court's Order of Jan. 13,
1994. Pursuant to the Standing Order, the Court need not recuse itself if the
assigned judge determines the matter to be patently frivolous or if judicial
immunity is plainly applicable, but the Court must reassign the matter for

A21
transfer outside of this District in the event the matter is neither frivolous nor
subject to immunity. Id. Because judicial immunity is applicable to the claims in
this case, the Court need not recuse under the Standing Order.
"Ill. DECISION
Plaintiffs bring this action against Judge Hillman and the Clerk's Office
employees alleging they violated their First, Fifth, Seventh Amendments rights
pursuant to 28 U.S.C. §§ 1331, 1343, 2201, and 2202, and Bivens. (See ECF No.
1.) Specifically, Plaintiffs claim Judge Hillman and the Clerk's Office employees
"refuse[d] to enter default upon demand" in Reardon v. Segal and Reardon v.
Officer Mondelli, both of which were before Judge Hillman. (ECF No. 1 Par.s 3,
4, 6, 9, 10, 13, 16, 18, 19, 23, 27, 28, 35, 48, 50, 51.)
2
Case 3H8-cv01296-BRM-DEA Document 9 Filed 04/06/18 Page 3 of 7 PagelD:
177
[I]t is a general principle of the highest importance to the proper administration
of justice that a judicial officer, in exercising the authority vested in him, shall be
free to act upon his own convictions, without apprehension of personal
consequences to himself." Bradley v. Fisher, 80 U.S. 335, 347 (1872). Courts have
therefore held that judges, are not liable in civil actions, "even when such acts are
in excess of their jurisdiction, and are alleged to have been done maliciously " or
corruptly." Id. at 351. The doctrine of judicial immunity has been determined to be
"applicable in suits under§ 1 of the Civil Rights Act of 1871, 42 U.S.C. § 1983, for
the legislative record gave no indication that Congress intended to abolish this

A22
long-established principle." Stump v.Sparkman, 435 U.S. 349, 355-56 (1978)
(citing Pierson v. Ray, 386 U.S. 547 (1967)). See also Gallas v. Supreme Court of
Pa., 211 F.3d 760, 768 (3d Cir. 2000) ("The Supreme Court long has recognized
that judges are immune from suit under section 1983 for monetary damages
arising from their judicial acts."). Because Bivens is the federal analogue to an
action under 42 U.S.C. "§ 1983, the doctrine of judicial immunity also applies to
such causes of action. See Harvey v. Loftus, 505 F. App'x 87, 90 (3d Cir. 2012.
This immunity, however, is not indefinite. Instead, it is "justified and
defined by the functions it protects and serves." Forrester v. White, 484 U.S. 219,
227 (1988). Immunity does not extend to actions not within the judge's official
capacity, nor does it extend to actions taken in the absence of all jurisdiction.
Mireles v. Waco, 502 U.S. 9, 11-12 (1991). To determine whether an act is
"judicial," the Court looks to whether the act performed by the judge "is a function
normally performed by a judge, and to the expectations of the parties, i.e.
whether they dealt with the judge in his judicial capacity." Gallas, 211 F.3d at
768-69 (quoting Stump, 435 U.S. at 362). In inquiring as to whether an act was
performed in the absence of all jurisdiction, and therefore not subject to immunity
the Court must distinguish those acts that were merely performed "in excess of
jurisdiction," to which the immunity extends. Id. at 769.
3
Case 3U8-cv-01296-BRM-DEA Document 9 Filed 04/06/18 Page 4 of 7
PagelD: 178
Here, Plaintiffs sue Judge Hillman because he did not enter default

A23
judgment in their favor. This is clearly "a function normally performed by a
judge." Id. at 768-69 (quoting Stump, 435 U.S. at 362); see, e.g., Bey v. Bruey,
No. 09-1092, 2009 WL 961411, at *3 (D.N.J. Apr. 8, 2009) (finding that "entering,
refusing to enter, or failing to enter default" is a judicial function entitled to
immunity); Fischer v. United States, No. 02-691, 2003 WL 21262103, *4-*5 (C.D.
Cal. 2003) (finding that court clerks were immune from claims that they had
obstructed justice and • • encouraged organized crime by not entering defaults, by
entering motions to dismiss as answers, by entering prohibited pre-trial motions,
or by altering the sequence of events (numbers and entry dates) while supposedly
correctly docketing a case (citation omitted)). Because Plaintiffs allege no facts
suggesting Judge Hillman acted in the complete absence of jurisdiction, Judge
Hillman is immune from suit, [l] Accordingly, this action is DISMISSED in its
entirety as to Judge Hillman WITH PREJUDICE. Dismissal of the Complaint
with prejudice as to Judge Hillman is warranted here as any further amendment
would be futile since Judge Hillman is immune from suit. [2]
4
Case 3U8-cv0l296-BRM-DEA Document 9 Filed 04/06/18 Page 5 of 7 Page
ID: 179
judicial immunity from damages for civil rights violations when they perform
tasks that are an integral part of the judicial process." Mullis v. U.S. Bankr.
1 Indeed, Plaintiffs' complaints in Reardon v. Segal, etal., No. 15-00244 (D.
N.J. filed Jan. 13, 2015) and Reardon v. Officer Mondelli, et. al., No. 15-05520
(D.N.J. filed July 9, 2015) are brought pursuant to federal jurisdiction and
admit Judge Hillman had jurisdiction.

A24
Court/or Dist. of Nev., 828 F.2d 1385, 1390 (9th Cir. 1987); Akins v. Deptford
Twp., 813 F. Supp. 1098, 1102-03 (D.N.J.), affd, 995 F.2d 215 (3d Cir.), cert.
denied, 510 U.S. 981 (1993). Grayson v. Mayview State Hosp., 293 F.3d 103,
108 (3d Cir. 2002).
In Antoine v. Byers & Anderson, Inc., 508 U.S. 429 (1993), in response to a
court reporter asserting a defense of absolute judicial immunity, the Supreme
Court revisited the question of when judicial or quasi-judicial immunity should be
extended to persons who participate in the judicial function. The Court found
judicial immunity is extended to officials other than judges when "their judgments
are 'functional[ly] comparable]' to those of judges-that is, because they, too,
'exercise a discretionary judgment' as a part of their function." Id. at 436 (citations
omitted). As such, under this "functional approach," courts must look to the
nature of the function performed and not to the identity of the actor performing it.
See Buckley v. Fitzsimmons, 509 U.S. 259, 269 (1993). The Third Circuit has
2 In determining a motion for leave to amend, courts consider the following factors:
(l) undue delay on the part of the party seeking to amend; (2) bad
faith or dilatory motive behind the amendment; (3) repeated failure to cure
deficiencies through multiple prior amendments! (4) undue prejudice on the
opposing function. See Hughes v. Long, 242 F ,3d 121 (3d Cir. 200 I). "Court
clerks have absolute quasi- Judicial immunity may also extend to
professionals who assist courts in their judicial " " party! and/or (5) futility of
the amendment. See Great Western Mining & Mineral Co. v. Fox Rothschild
LLP, 615 F ,3d 159, 174 (3d Cir. 2010)( quoting Foman v. Davis, 371 U.S. 178,
182 (1962)). An amendment is futile if it "is frivolous or advances a claim ...
that is legally insufficient on its face." Harrison Beverage Co. v. Dribeck Imp.,
Inc., 133 F.R.D. 463, 468 (D.N.J. 1990) (citations omitted). To evaluate futility,
the Coui;t uses "the same standard of legal sufficiency" as applied to a
motion to dismiss under Rule 12(b)(6). Shane v. Fauver, 213 F.3d 113, 115 (3d
Cir. 2000)

A25
applied this "functional approach" to hold that court-appointed custody evaluators
enjoyed absolute judicial immunity from civil rights liability because they acted
as "arms of the court," "a non-judicial person who fulfills a quasi-judicial rote at
the court's request." See Hughes, 242 F.3d at 126. Courts have noted that"[ a]
court's inherent power to control its docket is part of its function of resolving
disputes between parties. This is a function for which judges and their supporting
staff are afforded absolute immunity." Bey, 2009 WL 961411, at *3 (quoting
Rodriguez v. Weprin, 116 F.3d 62, 66 (2d Cir. 1997)); see Doyle v. Camelot Care
Centers, Inc., 305 F.3d 603, 622-23 (7th Cir. 2002); In re Castillo, 297 F.3d 940,
951 (9th Cir. 2002). Moreover, courts in this Circuit and others have extended and
continue to extend quasi-judicial immunity to court clerks who are alleged to have
acted incorrectly or improperly in the management of a court's docket. See, e.g.
5
Case 3H8-cv01296-BRM-DEA Document 9 Filed 04/06/18 Page 6 of 7 Page
ID: 180
Fischer, 2003 WL 21262103, *4-*5 (finding that court clerks were immune from
claims that they had obstructed justice and encouraged organized crime by not
entering defaults, by entering motions to dismiss as answers,by entering
prohibited pre-trial motions, or by altering the sequence of events (numbers and
entry dates) while supposedly correctly docketing a case (citation omitted)); Davis
v. Phila. Cty., 195 F. Supp. 2d 686, 688 (E.D. Pa. 2002) (finding the Clerk of
Judicial Records" was entitled to immunity because he or she was a court staff
member acting in his or her official capacity).

A26
In Bey, the plaintiff brought a civil action against three Clerk's Office
employees alleging the Clerk's Office did not enter default upon plaintiffs request.
Bey, 2009 WL 961411, at *2. Ultimately, the Court found the entry of default to
be a judicial function, warranting immunity. Id. at 4. The Court, in analyzing
whether or not entering default was a judicial function, stated:
In the present case, the Federal Rules of Civil Procedure entrust to the
Clerk of Court and his deputies the function of determining whether default
should be entered. Rule 55(a), Fed.R.Civ.P., provides:
Entering a Default. When a party against whom a judgment for affirmative
relief is sought has failed to plead or otherwise defend, and that failure is
shown by affidavit or otherwise, the clerk must enter default.
Fed.R.Civ.P. 55(a).3 Under Rule 55(a), the Clerk is called upon to ascertain,
from the proofs submitted, whether the defendant has been served with the
Summons and complaint in accordance with the rules governing such service,
when the service occurred, when the time to answer or otherwise plead has
expired, whether the time to answer has been enlarged, and ultimately whether
the defendant has failed to plead or otherwise defend. These are highly factsensitive determinations of a judicial nature, entrusted to the clerk and deputy
clerks. Thus, as stated by a leading commentator, "The clerk's function [in
deciding whether to enter default] is not perfunctory. Before entering a default,
the clerk must examine the affidavits filed and find that they meet the
requirements of Rule 55(a)."
10 A Wright, Miller & Kane, Federal Practice and Procedure § 2682 at p. 19

A27
(citations omitted). " Id. at 4. Lastly, the Court noted "entering, refusing to enter,
or failing to enter default, the clerk and
6
Case 3'-18-cv01296-BRM-DEA Document 9 Filed 04/06/18 Page 7 of 7 Page
ID: 181
deputy clerks of court are performing a function at the core of adjudication." Id.
Here, Plaintiffs argue the Clerk's Office employees refpsed to enter a default
judgment against the defendants in the other two civil matters. Therefore, like
the Clerk's Office employees in Bey, the Clerk's Office employees here are also
entitled to immunity for the actions they took in their capacities as employees of
the United States District Court. The Complaint does not allege the Clerk's Office
employees acted in their individual capacities and does not state a claim for a
violation of any clearly established constitutional rights so as to waive the Clerk's
Office employees' entitlement to immunity. See Person v. Callahan, 555 U.S. 223,
129 S. Ct. 808, 815 "(2009) ("The doctrine of qualified immunity protects
government officials 'from liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a
reasonable person would have known.'" (citation omitted)). Accordingly, Judge
Hillman and the Clerk's Office employees are immune from suit and this matter is
DISMISSED WITHOUT PREJUDICE in its entirety. As such, judicial immunity
is plainly applicable to the claims in this case and the Court need not recuse
under the Standing Order.
"IV. CONCLUSION "

A28
For the reasons stated above, Plaintiffs' Complaint is DISMISSED .WITH
PREJUDICE s to Judge Hillman and WITHOUT PREJUDICE as to the Clerk's
Office employees. An appropriate order follows.
Date^ April 6, 2018

/s/ Brian R, Martino«;
HON. BRIAN R. MARTINOTTI"
UNITED STATES DISTRICT JUDGE

A29
Case: 18-1880 Document: 003113019765 Page: l Date Filed: 08/28/2018
BLD'-295 NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
"No. 18-1880 "

JOHN E. REARDON; JUDITH A. REARDON; JOHN J. REARDON,
Appellants
V
NOEL HILLMAN; JAY SANCHEZ; DESIREE RAMSEY; RY AN MERRIGAN
On Appeal from the United States District Court for the District of New
Jersey (D.C. Civil No. 3-18-cv-01296)
District Judge: Honorable Brian R. Martinotti Submitted for Possible
Dismissal Due to a Jurisdictional Defect, and on Appellees' Motion for Summary
Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6 "
August 23, 2018
Before: RESTREPO, BIBAS, and NYGAARD, Circuit Judges
(Opinion filed: August 28, 2018)
OPINION
PERCURIAM
This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.
1
Case: 18-1880 Document: 003113019765 Page: 2 Date Filed: 08/28/2018
Appellant, John E. Reardon, submitted a pro se complaint in the United
States District Court for the District of New Jersey on behalf of himself, and
Judith A. and John J. Reardon, against District Court Judge Noel Hillman

A30
and three employees of the District Court's Clerk's Office ("Clerk's Office
employees"). The Reardons alleged, inter alia, that District Judge Hillman and
the Clerk's Office employees violated certain of their constitutional rights by
refusing to grant their various motions for default judgment filed in two other
civil actions they are litigating in the District of New Jersey. The District Court
concluded that the complaint was barred by judicial immunity. Accordingly, it
dismissed the action against District Judge Hillman with prejudice and dismissed
the complaint without prejudice as to the Clerk's Office employees. John E.
Reardon appeals, [l] from suit for monetary damages arising from their judicial
acts.
We have jurisdiction under 28 U.S.C. § 1291,and conclude that the District
Court did not err in dismissing Reardon's complaint. [2] The Supreme Court has
long recognized that judges are immune Although the District Court originally
dismissed the complaint against the Clerk's Office employees without prejudice,
Reardon has, through his later submissions,
[1] John E. Reardon has filed a notice of appeal on behalf of himself and on behalf
of John J. Reardon and Judith A. Reardon. However, a person who is
not a licensed attorney may only represent himself in this Court. See 28 U.S.
C. § 1654; see also Becker v. Montgomery, 532 U.S. 757, 760, 768 (2001)
(appeal may proceed so long as appellant promptly supplies signature).
John E. Reardon does not appear to be a licensed attorney, and John J.
Reardon and Judith A. Reardon never personally signed the notice of
appeal as directed by the Clerk's Office. Accordingly, the appeal will
proceed as to John E. Reardon only.
[2] indicated his intent to stand on the complaint as filed. Therefore, the
appeal will not be dismissed for lack of jurisdiction. See Borelli v. City of
Reading, 532 F.2d 950, 951-52 (3d Cir. 1976). Moreover, the District Court
entered a subsequent order dismissing the entirety of the complaint with
prejudice.

A31
See-Mireles v. Waco, 502 U.S. 9, 9 (1991); Forrester v. White, 484 U.S. 219,
2
Case: 18-1880 Document: 003113019765 Page: 3 Date Filed: 08/28/2018
225*27 (1988); Stump v. Sparkman, 435 U.S. 349, 355-56 (1978). Judicial
immunity applies unless the judge's actions either were nonjudicial or were taken
in the complete absence of jurisdiction. See Gallas v. Supreme Court of Pa., 211
F.3d 760, 768-69 (3d Cir. 2000) (citing Mireles, 502 U.S. at 11-12). Likewise, a
Court Clerk or judicial officer enjoys absolute quasi-judicial immunity when he or
she performs a "judicial act," such as entry of a default judgment. See Lundahl v.
Zimmer, 296 F.3d 936,939 (10th Cir. 2002).
The District Court correctly concluded that absolute judicial immunity applies in
this case insofar as Reardon claims his injuries stem directly from the failure of
District Judge Hillman and the Clerk's Office employees to direct the entry of
default judgment in his favor. These actions (or, perhaps more appropriately,
refusals) were not taken in the complete absence of jurisdiction but were in
furtherance of their official, judicial duties, and thus may not serve as the bases
for an award of civil damages. As a result, the District Court appropriately
dismissed the complaint. See Gallas, 211 F.3d at 770. Accordingly, because this
appeal presents no substantial issue, we will grant appellees' motion and
summarily affirm the District Court's order of dismissal. See Third Circuit
27.4 and I.O.P. 10.6. "

M ti

LAR

Date Filed
01/13/2015

A32
Docket Text i:i5-cv-00244
1 Complaint Received. (Attachments: # 1 Exhibit A, # 2
Exhibit B,# 3 Memorandum of Law, # 4 EnvelopeXbdk,)
NO IFP/FF (Entered: 01/14/2015)

#

01/15/2015

2 Clerk's Letter: Complaint not accompanied by the filing
Fee Or application to proceed in forma pauperis. (Bdk,)
(Entered:01/15/2015)

01/15/2015

3 Exhibit to 1 Complaint Received by JOHN E. REARDON.
(Attachments: # 1 Cover Letter & EnvelopeXbdk,)
(Entered: 01/16/2015)

01/21/2015

4

Exhibit to 1 Complaint Received by JOHN E. REARDON.
(Bdk,)(Entered: 01/21/2015)

01/22/2015

5

01/22/2015

6 Exhibit to 1 Complaint Received by JOHN E. REARDON,
(bdk, XEntered: 01/22/2015)

01/23/2015

7 Letter from JOHN E. REARDON re. 1/13/2015 filing, etc.
(drwXEntered: 01/23/2015)

02/05/2015

8 Letter from JOHN E. REARDON dated 2/3/2015. (tf,)
(Entered: 02/05/2015)

02/05/2015

9 Exhibit and supplemental pleading to 1 Complaint
Received by JOHN E. REARDON, (tf,) (Entered: 02/05/
2015)

02/06/2015

10 Letter from JOHN E. REARDON re. Status of Case, (drw)
(Entered: 02/06/2015)

02/20/2015

02/20/2015

Letter from JOHN E. REARDON re: filing of a motion in
15-CV-244. (bdk,) (Entered: 01/22/2015)

Filing fee: $ 400, receipt number CAM004832 (bdk,)
(Entered: 02/23/2015)
11 SUMMONS ISSUED as to HOPKINS, RICHARD KLEIN,
MENNETTI,MILLER, PAGE, VINCENT SEGAL Attached is

the
official court Summons, please fill out Defendant and
Plaintiffs attorney information and serve. Issued By *Brian
D. Kemner* (bdk, XEntered: 02/23/2015)

Date Filed
03/11/2015

A3 3
Docket Text I:i5‘cv00244
12 Letter from JOHN E. REARDON re. Additional Legal Issues.
(Attachments^ # 1 ExhibitXdrw) (Entered: 03/16/2015)

#

03/11/2015

13 Letter from JOHN E. REARDON.(drw)(Entered: 03/16/2015)

03/20/2015

14 SUMMONS Returned Executed (Served by Certified Mail).
RICHARD KLEIN served on 3/6/2015; NJ ATTORNEY
GENERAL served on 3/9/2015, filed by JOHN E. REARDON,
(drw) (Entered: 03/24/2015)
15 SUMMONS Returned Executed (Served by Certified Mail).
VINCENT SEGAL served on 3/17/2015, filed by JOHN E.
REARDON, (drw) (Entered: 03/24/2015)

03/23/2015

Date Filed

#

07/09/2015

1

A3 4
Docket Text

i:i5-cv-05520:

COMPLAINT against CAPLAN, MARY EVA
COLALILLO, CRIMINAL AND CIVIL DOCKET

CLERKS
OF CAMDEN COUNTY FROM JUNE 1990 TO
FEBRUARY 1992, BRUCE DAWSON, JAMES FARMER,
WARREN FAULK, HOWARD C. GILFERT, GREENE,
JAMES LEASON, MONDELLI, JAMES P. MULVIHILL,
ANDREW ROSSETTI, A.L. SIMON, FRANK J. SOLTIS,
STEINBERG, S. KEVEN WALSHE ( Filing and Admin
fee
$400 receipt number CAM007024) with JURY
DEMAND, filed by JOHN E. REARDON. (Attachments:
# 1 Addendum to Complaint, # 2 EnvelopeXjjc)
(Entered: 07/15/2015)
07/15/2015

2

SUMMONS ISSUED as to CAPLAN, MARY EVA
COLALILLO, BRUCE DAWSON, JAMES FARMER,
WARREN FAULK, HOWARD C. GILFERT, GREENE,
JAMES LEASON, MONDELLI, JAMES P. MULVIHILL,
ANDREW ROSSETTI, A.L. SIMON, FRANK J. SOLTIS,
STEINBERG, S. KEVEN WALSHE with answer to
complaint due within 21 days, (tf, ) (Entered: 07/15/
2015)

07/27/2015

3

AMENDMENT to lawsuit as to facts and Parties/
Defendants by JOHN E. REARDON. (TH,) (Entered:
07/27/2015)

08/04/2015

4

AMENDMENT to lawsuit as to Parties/Defendants
and as to Damages by JOHN E. REARDON. (TH,)
(Entered: 08/04/2015)

08/21/2015

5

ADDENDUM for clarification of 1 Complaint by
JOHN E. REARDON. (TH,) (Entered: 08/21/2015)

08/24/2015

6

Letter from John E. Reardon withdrawing Mary Eva
Colalillo and replacing her with Edward F. Borden,
Jr.. (TH,) (Entered: 08/24/2015)

Date Filed
08/25/2015

#

Docket Text
L15-cv-05520:
AMENDED DOCUMENT to lawsuit as to relief as to
Count 17 by JOHN E. REARDON. (TH,) (Entered:

7

A3 5
08/25/2015)
09/18/2015

8

Letter from John E. Reardon re: Discrimination.(TH,)
(Entered: 09/18/2015)

09/29/2015

9

SUMMONS Returned Executed by JOHN E.
REARDON. CAPLAN served on 9/18/2015, answer
due 10/9/2015; BRUCE DAWSON served on 9/21/
2015, answer due 10/13/2015; JAMES FARMER
served on 9/18/2015, answer due 10/9/2015!
WARREN FAULK served on 9/18/2015, answer due
10/9/2015! HOWARD C. GILFERT served on 9/18/
2015, answer due 10/9/2015; JAMES P. MULVIHILL
served on 9/21/2015, answer due 10/13/2015!
ANDREW ROSSETTI served on 9/18/2015, answer due
10/9/2015! FRANK J. SOLTIS served on 9/18/2015,
answer due 10/9/2015; S. KEVEN WALSHE served on
9/18/2015, answer due 10/9/2015. (The following are
not named defendants, and summons were not
issued by the Court: EDWARD F. BORDEN, JR., OUR
LADY OF LOURDES HOSPITAL, OFFICER MULLER,
JUDGE GAUKIN, and JUDGE KESTIN) (TH,) (Entered:
09/29/2015)

10/09/2015

10

Certified Mail Receipt Returned sent to GREENE,
JAMES LEASON, filed by JOHN E. REARDON. (TH,)
(Entered: 10/09/2015)

10/26/2015

11

Letter and Application for an Order for Injunctive
Relief from John E. Reardon. (TH,) (Additional
attachment(s) added on 10/27/2015: # 1
Duplicate Papers) (TH). (Entered: 10/26/2015)

10/28/2015

12

Letter from DAG Brian P. Wilson re: Plaintiffs Failure
to Properly Serve State Defendants. (WILSON,
BRIAN) (Entered: 10/28/2015)

10/28/2015

13

NOTICE of Appearance by BRIAN P. WILSON on
behalf of GREENE, STEINBERG (WILSON, BRIAN)
(Entered: 10/28/2015)

Date Filed
10/28/2015

#

Docket Text
L15-CV-05520:
Guide re: Exhibits from John E. Reardon. (TH,)
(Main Document 14 replaced on 9/7/2017) (aji).

14

A36
Modified on 10/9/2018 (aji,).(Entered: 10/29/2015)
10/28/2015

15

Exhibit to 11 Letter and Application for an Order for
Injunctive Relief by JOHN E. REARDON.
(Attachments^ # 1 Letter and Proposed Order)(TH,)
(Entered: 10/29/2015)

10/28/2015

16

SUMMONS Returned Executed by JOHN E.
REARDON. JUDGE GREENE served on 9/23/2015,
answer due 10/14/2015; JUDGE STEINBERG served
on 10/7/2015, answer due 10/28/2015. (TH,)
(Entered: 10/29/2015)

10/28/2015

17

Summons Returned Unexecuted by JOHN E.
REARDON as to MONDELLI, A.L. SIMON.(TH,)
(Entered: 10/29/2015)

10/28/2015

18

Request for Default Judgment by JOHN E.
REARDON. (TH,) (Entered: 10/29/2015)

11/03/2015

19

REPLY to State's Motion to Dismiss by way of R4(B)
(4) and/or (5). (TH,) (Entered: 11/03/2015)

11/03/2015

20

MOTION to bar a Rule 11 Claim by the State and
for an Order veryfying this lawsuit by JOHN E.
REARDON. (TH,)(Entered: 11/03/2015)
Set/Reset Deadlines as to 20 MOTION to bar a Rule
11 Claim by the State and for an Order veryfying
this lawsuit. Motion set for 12/7/2015 before
Magistrate Judge Ann Marie Donio. The motion will
be decided on the papers. No appearances
required unless notified by the court. (TH,) (Entered:
11/03/2015)

11/03/2015

11/05/2015

21

SUMMONS Returned Executed by JOHN E.
REARDON. JAMES LEASON served on 9/28/2015,
answer due 10/19/2015. (TH,)(Entered: 11/05/2015)

Date Filed
01/19/2018

#

1

3:i8-CV-01296
A3 7
Docket Text
COMPLAINT against NOEL HILLMAN, RYAN
MERRIGAN, DESIREE RAMSEY, JAY SANCHEZ (

Filing
and Admin fee $400 receipt number CAM009394)
with JURY DEMAND, filed by DESIREE RAMSEY,
NOEL
HILLMAN, RYAN MERRIGAN, JAY SANCHEZ.
(Attachments^ # 1 Cover Letter, # 2 Envelope)(jem)
(Entered: 01/30/2018)
01/30/2018

2

SUMMONS ISSUED as to NOEL HILLMAN, RYAN
MERRIGAN, DESIREE RAMSEY, JAY SANCHEZ
Attached is the official court Summons, please fill
out Defendant and Plaintiffs attorney information
and serve. Summonses sent via USPS on 1/30/2018.
Issued By *John Moller* (jem) (Entered: 01/30/2018)

01/30/2018

3

Memorandum of Law filed by John E. Reardon,
giving his position on the Court's refusal to file his
Lawsuit, (mmh) (Entered: 01/31/2018)

02/13/2018

4

CERTIFICATE OF SERVICE re: Summons and
Complaint, (mmh) (Entered: 02/13/2018)

03/08/2018

5

Request for Default by JOHN E. REARDON, JOHN J.
REARDON, JUDITH A. REARDON against All
Defendants. (Attachments: # 1 Exhibit)(mmh)
(Entered: 03/09/2018)
CLERK'S QUALITY CONTROL MESSAGE - Please be
advised that the Request for Entry of Default for
failure to plead or otherwise defend submitted by
Plaintiffs on 3/8/2018 will NOT be entered because
the time to plead or otherwise defend has not
expired [60 days for United States Agencies,
Employees, etc.']. This submission will remain on the
docket unless otherwise ordered by the Court.
(mmh) (Entered: 03/12/2018)

03/12/2018

03/19/2018

6

03/22/2018

7

Letter from John Reardon re 5 Request for Default,
(mmh) (Entered: 03/19/2018)
Letter from John Reardon withdrawing 5 Request for

Date Filed

#

04/03/2018

8

A38
Docket Text
Default, (mmh) (Entered: 03/22/2018)
Application and Proposed Order for Clerk's Order
to extend time to answer as to all Defendants.
Attorney DANIEL WILLIAM MEYLER for NOEL
HILLMAN,DANIEL WILLIAM MEYLER for RYAN
MERRIGAN,DANIEL WILLIAM MEYLER for DESIREE
RAMSEY,DANIEL WILLIAM MEYLER for JAY

SANCHEZ
added. (Attachments: # 1 Certificate of
ServiceXMEYLER, DANIEL) (Entered: 04/03/2018)
Clerk's Text Order - The document 8 Application for
Clerk's Order to Ext Answer/Proposed Order,
submitted by DESIREE RAMSEY, NOEL HILLMAN,
RYAN MERRIGAN, JAY SANCHEZ has been
GRANTED. The answer due date has been set for
4/23/2018. (mmh) (Entered: 04/03/2018)

04/03/2018

04/06/2018

9

OPINION. Signed by Judge Brian R. Martinotti on
4/6/2018. (jjc) (Entered: 04/06/2018)

04/06/2018

10

ORDER that Plaintiffs' complaint is dismissed with
prejudice as to Judge Noel Hillman; that Plaintiffs'
complaint is dismissed without prejudice as to
Clerk's office employees. Signed by Judge Brian R.
Martinotti on 4/6/2018. (jjc) (Entered: 04/06/2018)

[Personal Comment: How was I heard or given the right to amend this lawsuit for
additional facts and basis when the court dismissed this lawsuit without prior
notice, right to be heard or right to correct technical defects peremptorily which
is not allowed based on the Supreme Court decision of Foman v Davis and
Shiavone v Fortune.]

A3 9
Case 3:i8-cv-01296-BRM-DEA Document 26 Filed 01/07/19 Page 1 of 7
PagelD: 312 J.NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF NEW JERSEY
JOHN E. REARDON, et al„ Plaintiffs, V.
NOEL HILLMAN, et al„
Defendants.
Civil Action No. 3U8-cv-1296-BRM-DEA OPINION
MARTINOTTI, DISTRICT JUDGE
Before this Court are: (l) John E. Reardon's ("Reardon") Motion for relief from
judgment pursuant to Rule 60 (ECF No. 18); (2) Reardon's Motion to Amend the
Complaint (ECF No. 23); and (3) Reardon's Motion for Recusal (ECF No.24).
Defendants Noel Hillman, U.S.D.J., Jay Sanchez, Desire Ramsey, and Ryan
Merrigan (collectively, "Defendants") oppose the Motion for relief from judgment.
(ECF No. 21.) Having reviewed the parties' submissions filed in connection with
the motions and having declined to hold oral argument pursuant to Federal Rule of
Civil Procedure 78(b), for the reasons set forth below, and for good cause shown, all
motions are
DENIED.
I. BACKGROUND
Plaintiffs Reardon, Judith A. Reardon, and John J. Reardon (collectively
"Plaintiffs") brought an action against Judge Hillman and Clerk's Office employees
Jay Sanchez, Desiree Ramsey, and Ryan Merrigan, alleging violations
of their First, Fifth, and Seventh Amendment rights pursuant to 28 U.S.C. §§
1331, 1343, 2201, and 2202, and Bivens v. Six Unknown Named Agents of the
Federal Bureau of Narcotics, 403 U.S. 388 ( 1971). The allegations in Plaintiffs'
1
Case 3:i8-cv01296-BRM-DEA Document 26 Filed 01/07/19 Page 2 of 7 Page
ID: 313
Complaint arose from two other civil matters they are pursuing in this District,
see Reardon v. Segal, eta!., No. 15-00244 (D.N.J., filed Jan. 13, 2015) and
Reardon v. Officer Mondelli, et. al., No. 15-05520 (D.N.J., filed July 9, 2015),

A40
both of which were before Judge Hillman. Plaintiffs claim Judge Hillman and
the Clerk's Office employees "refuse] d] to enter default upon demand"in those
matters. (ECFNo. 1113,4,6,9, 10, 13, 16, 18, 19,23,27,28,35,48,50,51.) Plaintiffs
further argued the merits of their underlying cases and seek $100,000,000 in
compensatory, punitive, exemplary damages, loss of income, and emotional and
psychological distress. (See id. (Counts 1 through 9).)
On April 6, 2018, this Court dismissed Plaintiffs' Complaint with prejudice. (ECF
No. 9.) On April 19, 2018, Plaintiffs filed a notice of appeal to the Third Circuit.
(ECF No. 14.) On April 28, 2018, the Third Circuit affirmed this Court's dismissal
of Plaintiffs' complaint. See Reardon v. Hillman, 735 F. App'x 45, 46 (3d Cir.
2018). (ECF No. 20.) Over six months after this Court's initial dismissal of
Plaintiffs' Complaint, Reardon filed a Motion for relief from judgment pursuant to
Rule 60 (ECF No. 18) and a request setting out additional facts and law (ECF No.
19). Subsequently, on October 31, 2018, Reardon field a Motion to Amend the
Complaint. (ECF No. 23.) On November 1, 2018,
Reardon filed a Motion for Recusal. (ECF No. 24.) On December 12, 2018, Reardon
filed another request to add additional case law to his Rule 60 Motion. (ECF No.
25.)
II. LEGAL ST ANDA RDS A. Motion to Reopen
"Rule 60(b) allows a party to seek relief from a final judgment, and request
reopening of his case, under a limited set of circumstances including fraud,
mistake, and newly discovered evidence," Gonzalez v. Crosby, 545 U.S. 524, 529,
125 S. Ct. 2641, 162 L.Ed.2d 480 (2005), as
2
Case 3G8-cv-01296'BRM-DEA Document 26 Filed 01/07/19 Page 3 of 7 Page
ID: 314
well as "inadvertence, surprise, or excusable neglect," Fed. R. Civ. P. 60(b)(1). "The
remedy provided by Rule 60(b) is extraordinary, and special circumstances must
justify granting relief under it." Jones v. Citigroup, Inc., No. 14-6547, 2015 WL
3385938, at *3 (D.N.J. May 26, 2015) ( quoting Moolenaar v. Gov't of the Virgin
Islands, 822 F .2d 1342, 1346 (3d Cir. 1987)). A Rule 60(b) motion "may not be
used as a substitute for appeal, and .legal error, without more cannot justify
granting a Rule 60(6) motion." Holland v. Holt, 409 F. App'x 494, 497 (3d Cir.
2010) (quoting Smith v. Evans, 853 F.2d 155, 158 (3d Cir. 1988)). A motion under
Rule 60(6) may not be granted where the moving party could have raised the same
legal argument by means of a direct appeal. Id.
B. Motion to Reconsider:

A41
While not expressly authorized by the Federal Rules of Civil Procedure, motions
for reconsideration are proper pursuant to this District's Local Civil Rule 7.1 (i). See
Dunn v. Reed Group, Inc., No. 08-1632, 2010 WL 174861, at *1 (D.N.J. Jan 13,
2010). The comments to that Rule make clear, however, that "reconsideration is an
extraordinary remedy that is granted 'very sparingly.'" L.Civ.R. 7. l(i) cmt. 6(d)
(quoting Brackett v. Ashcroft, Civ. No. 03-3988, 2003 WL 22303078, *2 (D.N.J.
Oct. 7, 2003)); see also Langan Eng'g & Envtl. Servs., Inc. v. Greenwich Ins. Co.,
No. 07-2983, 2008 WL 4330048, at *1 (D.N.J. Sept. 17, 2008) (explaining that a
motion for reconsideration under Rule 7.1(i) is" 'an extremely limited procedural
vehicle,' and requests pursuant to th[is] rule are to be granted 'sparingly' ")
(citation omitted); Fellenz v. Lombard Inv. Corp., 400 F. Supp. 2d 681, 683 (D.N.J.
2005).
A motion for reconsideration "may not be used to re-litigate old matters, nor to
raise arguments or present evidence that could have been raised prior to the entry
of judgment." P. Schoenfeld Asset Mgmt., LLC v. Cendant Corp., 161 F. Supp. 2d
349,352 (D.N.J. 2001). Instead,
3
Local Civil Rule 7. l(i) directs a party seeking reconsideration to file a brief
"setting forth concisely the matter or controlling decisions which the party believes
the Judge or Magistrate Judge has overlooked." L.Civ.R. 7.1(i); see also
Bowers v. Nat'! Collegiate Athletic Ass'n, 130 F. Supp. 2d 610,612 (D.N.J. 2001)
("The word 'overlooked' is the operative term in the Rule.").
To prevail on a motion for reconsideration, the moving party must show at least
one of the following grounds^ "(1) an intervening change in the controlling law; (2)
the availability of new evidence that was not available when the court [made its
initial decision]; or (3) the need to correct a clear error of law or fact or to prevent
manifest injustice." Max's Seafood Cafe by Lou-Ann, Inc. v. Quinteros, 176 F.3d
669, 677 (3d Cir. 1999); see also N. River Ins. Co. v. CIGNA Reinsurance, Co., 52
F. 3d 1194, 1218 (3d Cir. 1995) (internal quotations omitted). A court commits
clear error of law "only if the record cannot support the findings that led to the
ruling." ABS Brokerage Servs. v. Penson Fin. Servs., Inc., No. 09*4590, 2010 WL
3257992, at *6 (D.N.J. Aug. 16, 2010) (citing United States v. Grape, 549 F. 3d
591, 603-04 (3d Cir. 2008)). "Thus, a party must... demonstrate that (l) the
holdings on which it bases its request were without support in the record, or (2)
would result in 'manifest injustice' if not addressed." Id. Moreover, when the
assertion is that the Court overlooked something, the Court must have overlooked
some dispositive factual or legal matter that was presented to it. See L.Civ.R. 7.1

(i).
In short, "[m]ere 'disagreement with the Court's decision' does not suffice."
ABS Brokerage Servs., 2010 WL 3257992, at *6 (quoting P. Schoenfeld Asset

A42
Mgmt., LLC, 161 F. Supp. 2d at 353); see also United States v. Compaction Sys.
Corp., 88 F. Supp. 2d 339,345 (D.N.J. 1999) ("Mere disagreement with a court's
decision normally should be raised through the appellate process and is
inappropriate on a motion for [reconsideration]."); Florham Park Chevron, Inc. v.
Chevron US.A., Inc., 680 F. Supp. 159, 163 (D.N.J. 1988); Schiano v. MBNA
4
Corp., No. 05-1771, 2006 WL 3831225, at *2 (D.N.J. Dec. 27, 2006) ("Mere
disagreement with the Court will not suffice to show that the Court overlooked
relevant facts or controlling law, ... and should be dealt with through the normal
appellate process .... ") ( citations omitted).
Ill. DECISION
As a preliminary matter, Reardon argues this Court did not have the authority to
sua sponte screen their Complaint. (ECF No. 18 at 3-4, 8-9.) That argument is
incorrect. The Court had the authority to screen the Complaint pursuant to the
1994 Standing Order of Chief Judge John F. Gerry because Plaintiffs named a
district court judge as a Defendant.
The remainder of Reardon's Motion argues what the Court previously decided and
what the Third Circuit affirmed-that Defendants were not entitled to immunity.
(See ECF No. 18.) Similarly, Reardon's "additional facts and law" filed in support
of his Rule 60(b) motion attempt to demonstrate that the Clerk's Office is not
covered by judicial immunity because the acts giving rise to this suit derive from
"ministerial" and non-"judicial" duties. (ECF No. 19 at 5.) Reardon is simply
attempting to re-litigate issues that have already been decided by this Court and
the Third Circuit. See Reardon v. Hillman, 735 F. App'x 45, 46 (3d Cir. 2018).
Neither Rule 60(b) motions nor motions to reconsider provide avenues for re­
litigating already decided issues. See Smith, 853 F.2d at 158! see also P.
Schoenfeld Asset Mgmt., LLC, 161 F. Supp. 2d at 352. Rule 60 only allows a party
to seek relief from judgment "under a limited set of circumstances including fraud,
mistake, and newly discovered evidence," Gonzalez, 545 U.S. at 529, as well as
"inadvertence, surprise, or excusable neglect," Fed. R. Civ. P. 60(b)(1). To prevail
on a motion for reconsideration, the moving party must show at least one of the
following grounds^ "(l) an intervening change in the controlling law; (2) the
availability of new evidence that was not available when the court [made its
initial decision]; or (3) the need to correct a clear error of law
5
or fact or to prevent manifest injustice." Max's Seafood Cafe by Lou-Ann, Inc.
176 F.3d at 677. Reardon has not demonstrated any of these elements.

A43
Moreover, this Court is bound by the Third Circuit's opinion affirming this Court's
dismissal of Plaintiffs' Complaint. See Hutto v. Davis, 454 U.S. 370, 375 (1982)
("Unless we wish anarchy to prevail within the federal system, a precedent of this
Court must be followed by the lower federal courts no matter how misguided[ l]
the judges of those courts may think it to be."); Lee v. Cameron, No. 08-1972, 2015
WL 9598895, at *3 (M.D. Pa. Oct. 13, 2015) ("[T]he orderly functioning of the
judiciary would no doubt crumble if trial judges were free to disregard appellate
rulings."). Here, the Third Circuit has affirmed this Court's decision and stated:
The District Court correctly concluded that absolute judicial immunity applies
in this case insofar as Reardon claims his injuries stem directly from the failure
of District Judge Hillman and the Clerk's Office employees to direct the entry of
default judgment in his favor. These actions (or, perhaps more appropriately,
refusals) were not taken in the complete absence of jurisdiction but were in
furtherance of their official, judicial duties, and thus may not serve as the bases
for an award of civil damages. As a result, the District Court appropriately
dismissed the complaint. See Gallas, 211 F Jd at 770. Accordingly, because this
appeal presents no substantial issue, we will grant appellees' motion and
summarily affirm the District Court's order of dismissal. See Third Circuit LAR
27.4 and I.O.P. 10.6.
Reardon, 735 F. App'x at 46. This Court has no authority to deviate from the
Third Circuit's ruling in this case.
Notably, a trial court may "consider, as a matter of first impression, those IV.
CONCLUSION
issues For the reasons stated above, Reardon's Rule 60 Motion (ECF No. 18),
Motion to Amend (ECF No. 23), and Motion for Recusal (ECF No. 24) are
Date: January 7, 2019
DENIED.
1 Of course, this Court is not suggesting the Third Circuit's ruling was in any
way misguided, not expressly or implicitly disposed of by the appellate
decision." Bankers Trust Co. v. Bethlehem Steel Corp., 761 F.2d 943,950 (1985).
However, here, the issues Reardon moves the Court to reconsider are the
exact issues decided by the Third Circuit-the extension of judicial immunity
to Clerk's Office staff in entering default judgments. Accordingly, Reardon's Motion
for relief from the Court's prior Order is DENIED.2
2 Because the Third Circuit has affirmed the Court's prior Opinion, his Motion
to Amend the Complaint and Motion for Recusal are DENIED as MOOT. See,
e.g., Lane v. Simon, No. 04- 4079-JAR, 2007 WL 4365433, at *1-2 (D. Kan. Dec.
7, 2007) (denying plaintiffs' Motion for Leave to File Amended Complaint and
defendants' Motion to Dismiss as moot due to the Tenth Circuit's affirmance).

A44
Isl Brian R. Martinotti
HON. BRIAN R. MARTINOTTI UNITED STATES DISTRICT JUDGE
7

[Personal Comment: Under what premise of law do the lower courts assume
to act legally and constitutionally in screening a case to deny Due Process
to Notice and to be Heard? Also, How do you reditigate something you were
denied the right to litigate to begin with?]

A45
BLD-237

NOT PRECEDENTIAL UNITED STATES COURT OF
APPEALS

FOR THE THIRD CIRCUIT
No. 19-1334
JOHN E. REARDON; JUDITH A. REARDON; JOHN J. REARDON
V.
NOEL HILLMAN; JAY SANCHEZ; DESIREE RAMSEY; RYAN MERRIGAN
John E. Reardon, Appellant
On Appeal from the United States District Court for the District of New Jersey
(D.C. Civil No. 3-18-cv01296) Magistrate Judge: Honorable Brian R.
Martinetti
Submitted on Appellees' Motion for Summary Action Pursuant to Third Circuit
L.A.R. 27.4 and I.O.P. 10.6 July 18, 2019
Before: AMBRO, KRAUSE, and PORTER, Circuit Judges
(Opinion filed July 19, 2019)
OPINION*
PER-CURIAM* This disposition is not an opinion of the full court and pursuant to I.O.P. 5.7
does not constitute binding precedent
1
Case: 19:1334_Document: 003113296260 Page: 2 Date Filed: 07/19/2019
Prose appellant John Reardon appeals the District Court's order denying several
post-judgment motions. The Government has filed a motion for summary
affirmance. We will grant the Government's motion and summarily affirm the
District Court's judgment. See 3d Cir. L.A.R. 27.4; 3d Cir. I.O.P. 10.6.

A46
In his complaint, Reardon alleged that District Judge Noel Hillman and three
employees of the District of New Jersey's Clerk's Office violated his constitutional
rights by refusing to enter default and a default judgment in his favor in two
other actions that he litigated in the District of New Jersey.
The District Court dismissed the complaint with prejudice as to Judge Hillman
and without prejudice as to the other defendants. Reardon elected to stand on his
complaint and appealed to this Court. We affirmed, concluding that "[t]he District
Court correctly concluded that absolute judicial immunity applies in this case
insofar as Reardon claims his injuries stem directly from the failure of District
Judge Hillman and the Clerk's Office employees to direct the entry of default
judgment in his favor." See Reardon v. Hillman, 735 F. App'x 45, 46 (3d Cir. 2018)
(per curiam) (non-precedential).
Reardon then filed a Rule 60(b) motion in the District Court. He alleged that the
Courts had erred in concluding that the defendants were immune from suit and
that the District Court had erroneously dismissed his complaint sua sponte. He
also filed a motion to amend his complaint and a motion to recuse the District
Judge. The District Court denied the motions, and Reardon filed a timely notice of
appeal.
We have jurisdiction under 28 U.S.C. § 1291. We exercise plenary review over the
denial of relief under Rule 60(b )( 4 ), and we review orders concerning other
2
subsections of Rule 60(b) for abuse of discretion. See Budget Blinds, Inc. v. White,
536 F.3d 244, 251 & n.5 (3d Cir. 2008). We review the District Court's denial of
Reardon's motions for leave to amend and for recusal for abuse of discretion. See
City of Cambridge Ret. Sys. v. Altisource Asset Mgmt. Corp., 908 F.3d 872, 878
(3d Cir. 2018) (amendment); Sellcridge v. United of Omaha Life Ins. Co., 360 F.3d
155, 166 (3d Cir. 2004) (recusal).
The District Court did not err in denying Reardon's motions. He raised on direct
appeal all of the arguments that he presented in his Rule 60(b) motion, and in
affirming, we necessarily rejected those arguments. "A request for relief pursuant
to Rule 60(b) cannot be used as a substitute for an appeal," Morris v. Horn, 187
F.3d 333, 343 (3d Cir. 1999) (alteration omitted) (quoting Rolo v. City Investing
Co. Liquidating Trust, 155 F.3d 644, 653 (3d Cir. 1998)), let alone as a substitute
for rehearing or certiorari, see Reform Party of Allegheny Cty. v. Allegheny Cty.
Dep't of Elections, 174 F.3d 305, 312 (3d Cir. 1999) (en bane); see also United
Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260,270 (2010) ("[A] motion under
Rule 60(b)(4) is not a substitute for a timely appeal."). Thus, the District Court
properly denied Reardon's Rule 60(b) motion. See generally Bell v. Eastman Kodak
Co., 214 F.3d 798, 801 (7th Cir. 2000) ("The ground for setting aside a

I

A47
judgment under Rule 60(b) must be something that could not have been-used'to
obtain a-reversal by means of a direct appeal.").
Nor did the District Court err in denying Reardon's request to amend his
complaint. The District Court provided Reardon with an opportunity to amend his
complaint when it initially dismissed it, but Reardon instead chose to appeal
immediately, [see appendix Pages 18-19 and 29-30 above which contradicts the
Appellate Court’s opinion as to the right to amend being contrary.]
3
While Fed. R. Civ. P. 15(a) gives district courts broad discretion to permit
amendment, "the liberality of the rule is no longer applicable once judgment has
been entered," and instead, amendment "cannot be allowed until the judgment is
set aside or vacated under Rule 59 or Rule 60." Ahmed v. Dragovich, 297 F.3d 201,
207-08 (3d Cir. 2002) (quotation marks omitted).
As just noted, Reardon provided no valid basis to reopen the judgment under Rule
60(b). Moreover, insofar as Reardon merely reasserted essentially the same claims
that this Court had already concluded were barred by the defendants' immunity,
any amendment would have been futile. See generally id. at 209.
- - Finally, the District Court committed no error in denying Reardon's motion to
recuse. Reardon's motion was premised on his belief that the District Court acted
improperly in dismissing his complaint, but "[w]e have repeatedly stated that a
party's displeasure with legal rulings does not form an adequate basis for
recusal." Securacomm Consulting, Inc. v. Securacom Inc., 224 F.3d 273,278 (3d
Cir. 2000).
Accordingly, we grant the Government's motion for summary disposition and will
summarily affirm the District Court's judgment.
4
[Personal note: An examination of A19-31 and A39-47 above the court will see
that nowhere in the Court decisions does it state that it considered and denied Mr.
Reardon’s claims of denial of Due Process. Had the court made such a claim I
would have immediately moved to this court. However, even barring that process,
a void order can not be made valid by another court and there is no requirement,
the petitioner is aware of that requires him to challenge a void order by the Court
of appeals to this court. But even aside from this, no court can make valid and
legal a void order and since Judge Martinotti’s order is void and of no force and
any court who sanctions such void order is a trespasser of the law I am under no
obligation to proceed to the U.S. Supreme Court back in 2018 or in 2019.]

